 

 

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Richard G. Wern,

Petitioner,
vs.

Supreme Court of South Carolina

Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of South Carolina

PROOF OF SERVICE

I, Beth Cogan, an employee with Ballard & Watson, Attorneys at Law, do
hereby certify that on February 23, 2021, I served the Petitioner’s Petition for a
Writ of Certiorari and Petitioner’s Appendix in the above-captioned case on the
following individuals by US Mail with adequate postage, addressed as follows:

Via Certified Mail, Return Receipt Requested
7019 1120 0000 3768 8902
The Honorable Alan Wilson
South Carolina Attorney General
Post Office Box 11549
Columbia, South Carolina 29211

Via U.S. Mail
The Honorable Daniel Shearouse
Supreme Court of South Carolina
Post Office Box 11330
Columbia, South Carolina 29211

 
 

 

John Nichols
Office of Disciplinary Counsel
Post Office Box 12159
Columbia, South Carolina 29211

Beth Cogan, aaa

February 23, 2021

 
